ho
\

C@OCKLE

: E-Mail Address:
Legal Briefs contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214
Est. 1923

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 20-320

JANE DOE AND JOHN DOE, Individually and
as the natural parents and next of kin of Minor Doe,
Petitioners,
v.
JACKSON LOCAL SCHOOL DISTRICT BOARD
OF EDUCATION, TAMARA NEFF, MICHELLE
KRIEG, JIMMIE SINGLETON, SUSANNE
WALTMAN, and HARLEY NEFTZER,
Respondents.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF IN OPPOSITION
FOR RESPONDENTS JACKSON LOCAL SCHOOL DISTRICT BOARD OF EDUCATION,
TAMARA NEFF, MICHELLE KRIEG, JIMMIE SINGLETON, SUSANNE WALTMAN, and
HARLEY NEFTZER in the above entitled case complies with the typeface requirement of
Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and
10 point for the footnotes, and this brief contains 8941 words, excluding the parts that are

exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 3rd day of November, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

ponte | Kerce. Q.Llaoo Qudine-h Chl

My Comm. Exp. September 5, 2023
Notary Public Affiant

 

40298
